OIG Audit Report GR-30-03-005

Office of Community Oriented Policing Services Grantsto the Henrico County Division of Police
Henrico County, Virginia

Report No. GR-30-03-005


July 2003
Office of the Inspector General


Executive Summary


The Office of the Inspector General, Audit Division, has completed an audit of grants awarded by the Office of Community Oriented Policing Services (COPS) to the Henrico County Division of Police (grantee).  The purpose of the grants is to enhance community policing.  The COPS Office awarded the grantee a total of $5,680,804 to hire 69 new police officers and redeploy the equivalent of 13.4 existing full?time police officers from administrative duties to community policing.
We reviewed the grantee's compliance with seven essential grant conditions:  budgeting for officers, hiring of officers, source of local matching funds, reimbursement requests, retention of officer positions, officer redeployment, and community policing activities.  We found weaknesses in the hiring of officers and officer redeployment.  As a result, we question $562,033 of the grant funds received:1

The grantee was not within the target range for hiring of officers for 17 of the 93 months we reviewed.  This has the effect of supplanting.  Therefore, we are questioning $314,533 as a result of the officer hiring shortfall.
The grantee did not meet redeployment targets approved in the MORE grants.  As a result, we are questioning $247,500 in grant funds. 

These items are discussed in detail in the Findings and Recommendations section of the report.  Our audit objectives, scope and methodology appear in Appendix I.


Footnotes

The Inspector General Act of 1988 contains our reporting requirements for questioned costs and funds to better use.  See Appendix III for a breakdown of our dollar-related findings and for definitions of questioned costs and funds to better use.